Monica D. Cliatt
First Assistant Federal Public Defender

ArM M. Brenner
Randy V. Cargill
Nancy C. Dickenson-Vicars
Andrea L. Harris
Christine M. Lee
Lisa M. Lorish
Donald R. Pender
Benjamin M. Schiffelbein
John T. Stanford
Erin M. Trodden
Assistant Federal Public Defenders

Juval 0. Scott
Federal Public Defender

Charlottesville office:
401 E. Market Street, Suite 106
Charlottesville, VA 22902

Phone: (434) 220-3380
Fax: (434) 220-3390

August 24, 2021

Dear Clerk of the Court:
My name is Lisa Lorish and I have been an employee of the Federal Public
Defender's Office in the Western District of Virginia and counsel for the petitioner,
Guy Harvey Spruhan, IV. On July 26, 2021, I electronically filed and mailed a
paper copy of the Petition for Writ of Cert; however, it was not received and am
therefore submitting another copy from new counsel. I have resigned my current
employment effective September 6, 2021 because of my election to the Virginia
Court of Appeals. Christine M. Lee, also from the Federal Public Defender's Office
in the Western District of Virginia, will be replacing me as counsel in this matter.
Ms. Lee's contact information follows:
Christine M. Lee, AFPD
VA State Bar #73565
Office of the Federal Public Defender
for the Western District of Virginia
210 First Street, SW, Suite 400
Roanoke, Virginia 24011
Kind regards,

Lisa M. Lorish

Christine M. L

vaw.fd.org

RECEIVED
AUG 3 1 2021
PFCOU
THE_CJATIC
OFF1Cg
RT U.5.
SUPREMt

